WAIVER

SUPREME COURT OF THE UNITED STATES

No. 20-8337

Noe Torres Dwayne Santistevan, Warden, et al.
(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

* Please check the appropriate box:
© I am filing this waiver on behalf of all respondents.

oO T only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:

© Iam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO Iam not presently a member of the Bar of this Court. Should a response be requested, the response

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

Signature: a YW s
Date: 6/29/21

(Type or print) Name Jane A. Bernstein

O wr. O Ms. O Mrs. O Miss
Firm Attorney General for the State of New Mexico
Address 201 Third St. NW, Suite 300
City & State Albuquerque, NM Zip 87102
Phone 505-717-3509 Email jbernstein@nmag.gov

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Noe Torres
cc:
